No. 20-843
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ET AL., Petitioners,
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE,
ET AL., Respondents.
____________________
On Writ of Certiorari to the U.S. Court of Appeals
for the Second Circuit
____________________
Brief Amicus Curiae of
Gun Owners of America, Inc.,
Gun Owners Foundation, and
Heller Foundation
in Support of Petitioners
____________________
WILLIAM J. OLSON*
ROBERT J. OLSON
JEREMIAH L. MORGAN
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record

July 20, 2021

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 4
ARGUMENT
I.

THE SECOND CIRCUIT’S KACHALSKY DECISION
WAS BASED ON A FLAWED UNDERSTANDING OF
BOTH THE SECOND AMENDMENT AND THIS
COURT’S HELLER AND MCDONALD DECISIONS . . 6
A. Confusion about Heller . . . . . . . . . . . . . . . . 6
B. Disagreement with Heller. . . . . . . . . . . . . . 8
C. Reliance on Lawrence v. Texas and
Griswold v. Connecticut . . . . . . . . . . . . . . . 9
D. The Lower Court Erroneously Relied on
the “Longstanding” Status of the
Sullivan Law to Establish Its
Constitutionality . . . . . . . . . . . . . . . . . . . . 11

II. NEW YORK STATE’S LICENSING SCHEME
UNDERMINES RATHER THAN PROTECTS OUR
FREE STATE . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
III. THE SECOND CIRCUIT’S USE OF INTEREST
BALANCING VIOLATES BOTH HELLER AND
MCDONALD . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
A. Heller Did Address Use of Standards of
Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
B. Judges May Not Balance a Right that “Is
the Very Product of an Interest
Balancing by the People” . . . . . . . . . . . . . 21
IV. PRE-EXISTING RIGHTS ARE GOD-GIVEN
RIGHTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
V. A DECISION STRIKING DOWN NEW YORK’S
“PROPER CAUSE” STANDARD ALMOST
CERTAINLY WILL BE MANIPULATED BY THE
LOWER COURTS TO LIMIT GUN RIGHTS IN
SUBSEQUENT LITIGATION . . . . . . . . . . . . . . . . . 26
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

iii
TABLE OF AUTHORITIES

Page

HOLY BIBLE
Exodus 22:2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
1 Samuel 13:19 . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Psalm 82:4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Luke 11:21 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Luke 22:35-37 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

24
15
25
25
25

U.S. CONSTITUTION
Amendment II . . . . . . . . . . . . . . . . . . . . . . . 1, passim
Amendment XIV. . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
STATUTES
New York Penal Law Section 265.20 . . . . . . . . . . 16
New York Penal Law Section 400.01 . . . . . . . . . . 16
CASES
District of Columbia v. Heller, 554 U.S. 570
(2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, passim
Griswold v. Connecticut, 381 U.S. 479 (1965) . . . 10
Kachalsky v. County of Westchester, 701 F.3d 81
(2d Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . 2, passim
Heller v. District of Columbia, 670 F.3d 1244
(D.C. Cir. 2011). . . . . . . . . . . . . . . . . . . . . . . . . . 22
Lawrence v. Texas, 539 U.S. 558 (2003) . . . . . . 9, 10
Mai v. United States, 974 F.3d 1082 (9th
Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Marbury v. Madison, 5 U.S. 137 (1803) . . . . . . . . 23
McDonald v. City of Chicago, 561 U.S. 742
(2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, passim
Peruta v. California, 137 S. Ct. 1995 (2017) . . . . . . 7
Silvester v. Becerra, 138 S. Ct. 945 (2018) . . . . . . 10

iv
Soares v. State of New York, 68 Misc. 3d 249
(2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Cruikshank, 92 U.S. 542 (1874) . 23
U.S. v. Masciandaro, 638 F.3d 438 (4th Cir.
2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
MISCELLANEOUS
B. Adams, “MSNBC gives quick, minute-and-a-half
lesson on the need for our Second Amendment,”
Washington Examiner (Apr. 30, 2019) . . . . . . . 15
J. Bolger, “Exclusive: NYPD took hours to respond
to mass looting, despite quickly cracking down
on protests,” The Intercept (June 1, 2021) . . . . . 17
Declaration of Independence . . . . . . . . . . . . . . 24, 25
District of Columbia v. Heller Oral Argument
(Mar. 18, 2008) . . . . . . . . . . . . . . . . . . . . . . . 19, 20
A. Feuer and E. Sandoval, “‘It Was a Disgrace’:
De Blasio and Police Chief Faulted Over
Looting,” New York Times (June 17, 2020) . . . . 17
Stephen P. Halbrook, “Nazi Firearms Law and the
Disarming of the German Jews,” 17 ARIZONA
JOURNAL OF INTERNATIONAL AND COMPARATIVE
LAW, No. 3, 483 (2000) . . . . . . . . . . . . . . . . . . . . 15
S. Halbrook, The Right to Bear Arms: A
Constitutional Right of the People or a Privilege
of the Ruling Class? (Bombardier Books: 2021) 15
S. Lepore, “NYPD: Shootings up 166%, fueling
NYC crime surge,” News 10 (May 19, 2021) . . . 18
J. Marzulli, “Weapons ban defied: S.I. man,
arsenal seized,” Daily News (Sept. 5, 1992) . . . 17

v
R. Parascandola and T. Tracy, “Violence adds to
NYC’s 2020 death toll, with 97% jump in
shootings and 45% increase in murders —
criminal carnage not seen in 14 years,” Daily
News (Jan. 1, 2021) . . . . . . . . . . . . . . . . . . . . . .
D. Tcholakian, “Is New York the Most Corrupt
State in the Nation?” Longreads (May 11,
2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Venezuela bans private gun ownership,” BBC
(June 1, 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . .
N. Webster, An American Dictionary of the
English Language, 1828. . . . . . . . . . . . . . . . . . .

18
17
15
28

INTEREST OF THE AMICI CURIAE1
Gun Owners of America, Inc. is a nonprofit social
welfare organization, exempt from federal income tax
under Internal Revenue Code (“IRC”) section 501(c)(4).
Gun Owners Foundation and Heller Foundation are
nonprofit educational and legal organizations, exempt
from federal income tax under IRC section 501(c)(3).
Amici organizations were established, inter alia, for
the purpose of participating in the public policy
process, including conducting research, and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law.
STATEMENT OF THE CASE
Petitioners New York State Rifle & Pistol
Association, Inc. and certain individuals brought an
action under 42 U.S.C. § 1983, alleging a violation of
Second Amendment rights by certain New York State
officials who denied their applications for a license to
carry a firearm outside the home for self-defense. See
New York State Rifle & Pistol Ass’n v. Beach, 354 F.
Supp. 3d 143, 145 (N.D.N.Y. 2018) (“NYSRPA”).

1

It is hereby certified that counsel for Petitioners filed a blanket
consent with the Clerk, and counsel for Respondents has
consented to the filing of this brief; that no counsel for a party
authored this brief in whole or in part; and that no person other
than these amici curiae, their members, or their counsel made a
monetary contribution to its preparation or submission.

2
Petitioners’ license applications were denied under
one of the most restrictive firearms laws in the United
States — the Sullivan Law — enacted in 1911.
Carrying a concealed handgun outside the home or
office for the purpose of self-defense requires a license
issued by a licensing officer. Such licenses are not
issued unless the applicant makes certain showing to
the satisfaction of the licensing officer. Of particular
importance here as to carrying a concealed handgun,
the scheme requires that the applicant demonstrate
that “‘proper cause exists for the issuance thereof.’” Id.
Under case law, that “proper cause” requires the
applicant “‘demonstrate a special need for selfprotection distinguishable from that of the general
community.’” Id. at 146. Since plaintiffs “did not
‘show any facts demonstrating a need for selfprotection distinguishable from that of the general
public,’” the license was found to have been properly
denied. Id. at 148.
The district court viewed plaintiffs’ claims foreclosed
by the Second Circuit’s decision in Kachalsky v.
County of Westchester, 701 F.3d 81 (2d Cir. 2012),
which had ruled that the New York State licensing
scheme did not violate the Second Amendment.
NYSRPA at 147.
Appeal was taken to the Second Circuit, which
resolved the appeal with a summary order of three
paragraphs, likewise relying on its decision in
Kachalsky. See New York State Rifle & Pistol Ass’n v.
Beach, 818 Fed. Appx. 99 (2d Cir. 2020). Since the
court’s summary order was not supported by an
opinion, the Petition for Certiorari correctly based its

3
claims of error on the Second Circuit’s Kachalsky
decision, even though it was written years before in
2012.
The Second Circuit’s opinion in Kachalsky explained
that, although New York State generally prohibits the
possession of “firearms” absent a license, firearms are
defined to include only pistols and revolvers, rifles and
shotguns of shorter lengths, and what the law
pejoratively terms “assault weapons.” Thus, because
some long guns are not classified as “assault weapons,”
they are not subject to the licensing provision of the
statute. Kachalsky at 85. Applicants for licenses to
possess firearms must be (i) over 21 years of age; (ii) of
good moral character; (iii) without a history of crime or
mental illness; and (iv) “‘concerning whom no good
cause exists for the denial of the license.’” Id. at 86.
New York also issues various types of “license[s] to
carry a concealed pistol or revolver....” Id. at 85. Some
are “restricted” to certain activities including “target
practice or hunting.” Id. at 86 n.5. Meanwhile,
various exceptions to the licensing scheme authorize
certain state and city judges to carry concealed. Id.
Other concealed carry permits, like the ones at issue in
this case, are for those “who desire to carry a handgun
outside the home and who do not fit within one of the
employment categories,” who “must demonstrate
proper cause....” Id. at 86. The issue in Kachalsky and
the current challenge is one of these types of licenses
— to carry concealed without regard to employment,
outside one’s home or place of business.

4
A petition for certiorari was filed on December 17,
2020. When granted on April 26, 2021, review was
limited by the Court to one question: “Whether the
State’s denial of petitioners’ applications for
concealed-carry licenses for self-defense violated the
Second Amendment.” This Court narrowed the
broader question posed by Petitioners: “Whether the
Second Amendment allows the government to prohibit
ordinary law-abiding citizens from carrying handguns
outside the home for self-defense.”
SUMMARY OF ARGUMENT
Insofar as this Court has issued no substantive
Second Amendment firearms decisions in the decade
since Heller and McDonald, this case takes on great
significance. The decision of the Second Circuit cannot
be allowed to stand. The analysis of the Second
Amendment in the Kachalsky decision completely
missed the mark, illustrating the anti-gun instincts of
most lower federal judges. At one point, the court in
Kachalsky recognized that “[i]n Heller, the Supreme
Court concluded that the Second Amendment codifies
a pre-existing ‘individual right to possess and carry
weapons in case of confrontation’” (Kachalsky at 88),
but then its decision ultimately disregarded that right.
It was deemed sufficient that New York occasionally
grants a license to the rich and well connected to keep
it from being considered a complete ban on carrying.
Indeed, New York’s licensing system creates what
could be viewed as a “select militia” while disarming
the People’s militia protected by the Second
Amendment. Since this case involved bearing firearms
outside the home, it was said to involve a non-core

5
right which could be easily overtaken by government
assertions of public safety, even though the effective
ban makes New Yorkers less safe on the streets. The
fact that the licensing scheme has existed for over a
century does nothing to demonstrate its
constitutionality — just that New Yorkers have been
longsuffering.
The Kachalsky decision employs interest balancing
which Heller and McDonald rejected. As Justice
Scalia explained, the Second Amendment interest
balancing has already been done — by the People in
ratifying the Constitution. Rather, this Court should
employ here the test defined by then Judge
Kavanaugh — “text, history, and tradition.” The
rights that Kachalsky authorized New York to infringe
were pre-existing rights given the People, as the
Declaration of Independence asserts, by our Creator.
Rights not given by the government cannot be taken by
the government.
Since the Second Circuit in Kachalsky did its best to
evade the faithful application of the principles set out
in those two cases, these amici trust that this Court
will use this case to restore order to Second
Amendment jurisprudence. Should this Court rule for
Petitioners, these amici urge that great care be given
to the language of the decision so as to guard against
lower federal courts working hard to circumvent and
narrow application of this decision to future
challenges, as those courts have done with Heller and
McDonald.

6
ARGUMENT
I.

THE SECOND CIRCUIT’S KACHALSKY
DECISION WAS BASED ON A FLAWED
UNDERSTANDING OF BOTH THE SECOND
AMENDMENT AND THIS COURT’S HELLER
AND McDONALD DECISIONS.

The Second Circuit’s opinion in Kachalsky is simply
wrong on virtually every key point involving purpose
and scope of the Second Amendment, effectively
refusing to give effect to this Court’s Heller and
McDonald decisions.
A. Confusion about Heller.
First, Kachalsky was internally contradictory as to
its understanding of District of Columbia v. Heller, 554
U.S. 570 (2008).
In its decision, the Second Circuit began by
asserting that “the Supreme Court’s pronouncement in
Heller limits the right to bear arms for self-defense to
the home.” Kachalsky at 88 (emphasis added). No
citation is provided for this assertion, nor could there
be. Although the facts of Heller related a challenge to
a ban on possessing a handgun in the home, there is
no language in the Heller decision which limits
bearing of arms to inside one’s home. Moreover, the
Amendment’s right to “keep” arms involves possessing
firearms, while the right to “bear” arms applies outside
the home. Indeed, as Justice Thomas has noted, the
Second Amendment does not merely “protect ...
carrying a gun from the bedroom to the kitchen.”

7
Peruta v. California, 137 S. Ct. 1995, 1998 (2017)
(Thomas, J., dissenting from denial of certiorari).
From the deeply flawed starting point that Heller
only applies within the home, the court in Kachalsky
made every effort to cabin in the Second Amendment
and diminish the significance and scope of this Court’s
decision. The court below asserts that Heller provides
“no categorical answer” (Kachalsky at 88) as to
whether a licensing scheme which effectively bans
concealed carry by ordinary persons violates the
Second Amendment. That may be true to the extent
that bearing outside the home was not the issue
addressed in Heller, but it is hardly as if the principles
enunciated in Heller have no bearing on Petitioners’
challenge here.
Interestingly enough, just after claiming that Heller
does not implicate the bearing of arms, the Second
Circuit then turned around and asserted the opposite
— that “[i]n Heller, the Supreme Court concluded that
the Second Amendment codifies a pre-existing
‘individual right to possess and carry weapons in case
of confrontation.’”
Id. at 88 (emphasis added)
(citations omitted). Here, the court below made an
accurate statement. However, if the Second Circuit
truly understood Heller to codify a pre-existing
right to carry in case of confrontation, then one
naturally would expect that the “carry[ing]” and the
“confrontation” spoken of would occur outside the
home. Yet the court below found otherwise.

8
B. Disagreement with Heller.
The court below seemed determined not only to
narrow, but also to demean, the Heller decision by
claiming that “it raises more questions than it
answers.” Kachalsky at 88. In reality, the Second
Circuit did not like the answers Heller provides, and so
it refused to recognize them by pretending they are not
there. Reading the circuit court’s opinion, it quickly
becomes clear that it believes that the only reason that
Mr. Heller prevailed in his challenge was because the
D.C. law constituted a “complete ban on handguns in
the home.” Id. The court apparently believes that,
since a few New York carry licenses are issued to the
well-connected and politically powerful (see Brief for
Petitioners at 42), the law here “does not operate as a
complete ban” (Kachalsky at 91) and thus must be
upheld.
Kachalsky likewise disregards Heller’s refusal to
engage in interest balancing, alleging that was due
only to the fact that the Court was addressing a
“complete ban.” Kachalsky at 88. Thus, the court
launched into an evaluation of “how closely to
scrutinize New York’s statute” — discussing
“heightened scrutiny,” “strict scrutiny,” “core rights,”
“fundamental rights,” and other wholly arbitrary
language indicative of judicial interest balancing that
was eschewed by the Heller opinion. Id. at 93. In the
end, the court landed on “intermediate scrutiny,”
application of which enabled it to reach the desired
result — upholding the challenged statute. Entirely
unsurprisingly, New York’s “compelling, governmental
interests in public safety and crime prevention”

9
(Kachalsky at 97) were said to be so strong that they
overrode the need of New Yorkers to have a
meaningful way to protect themselves from crime on
the streets.
Ironically, Kachalsky viewed plaintiffs’ argument
that constitutional rights may not be subject to a “prior
restraint” to be nothing more than a First Amendment
type of analysis, with no application to the Second
Amendment, even though the court had used a First
Amendment interest balancing test to uphold the
state’s licensing scheme. See Kachalsky at 91 n.16.
C. Reliance on Lawrence
Griswold v. Connecticut.

v.

Texas

and

The court below should be given extra credit for its
creativity in inventing the argument it relied on to
conclude that concealed carry of firearms outside the
home in New York is entirely “outside the core Second
Amendment protections identified in Heller....”
Kachalsky at 94.
To establish this dubious
proposition, the court invoked Lawrence v. Texas, 539
U.S. 558 (2003) to allege that constitutional rights
apply in one’s home more robustly than outside the
home. Id. Thus, according to the Second Circuit,
while bearing firearms inside the home (the “core”
right) cannot be entirely banned by government,
bearing firearms anywhere else (an alleged non-“core”
right) can be banned and criminalized.
Exploring the court’s curious analogy and its high
view of the home, the “core” of Fourteenth Amendment
“liberty” interest created in Lawrence is performing

10
homosexual sodomy in the home. By the court’s own
logic, if a statute criminalized homosexual acts that
occurred in a motel, or in the woods, that would be
permissible, since it would not be part of the “core
right” recognized in Lawrence. The same would be
true for the court’s reliance on Griswold v.
Connecticut, 381 U.S. 479 (1965) (id. at 94), where the
“core” of the right of married couples using
contraception would be limited to the home only.
If a comparison is to be made between the
enumerated Second Amendment right “to keep and
bear arms” and the unenumerated right to engage in
homosexual acts grounded loosely in the word “liberty”
in the Fourteenth Amendment, one would think that
the enumerated right would receive greater protection.
Not so, either with the court below or most lower
federal courts, where the Second Amendment simply
is not enforced as stated. To diminish Second
Amendment protections, the fiction of “core” and “noncore” rights allows unelected judges to grant or
withhold rights based on personal preference rather
than constitutional text. Of course, when protecting
Fourteenth Amendment unenumerated rights favored
by the courts, judges feel free to demonstrate the full
range of their creative legal reasoning to expand — not
restrict — the “spheres of our lives and existence.”
Lawrence at 562. To the court below, the Second
Amendment not only is, but should be, a
“constitutional orphan.” See Silvester v. Becerra, 138
S. Ct. 945, 952 (2018) (Thomas, J., dissenting from
denial of certiorari).

11
D. The Lower Court Erroneously Relied on
the “Longstanding” Status of the Sullivan
Law to Establish Its Constitutionality.
The Second Circuit claimed that McDonald v. City
of Chicago, 561 U.S. 742 (2010), “reaffirmed Heller’s
assurances that Second Amendment rights are far
from absolute and that many longstanding handgun
regulations are ‘presumptively lawful.’” Kachalsky at
89. While, in a footnote, the court stated it did not
view the “longstanding” standard “as a talismanic
formula for determining whether a law regulating
firearms is consistent with the Second Amendment,”
the court nevertheless found this statement
“informative,” and to “make[] clear that the Second
Amendment right is not unlimited.” Id. at 90, n.11.
However, even if not a talisman, there is no question
that the fact that the Sullivan law was enacted in 1911
weighed heavily in the court’s decision. The court
below believed that “there is a longstanding tradition
of states regulating firearm possession and use in
public because of the dangers posed to public safety.”
Id. at 94-95. Thus, the impression given by the court’s
opinion is that longstanding laws have some special
validity, simply because of their age. But this was not
at all Justice Scalia’s point in Heller, when he stated
that:
Although we do not undertake an exhaustive
historical analysis today of the full scope of the
Second Amendment, nothing in our opinion
should be taken to cast doubt on [i] longstanding
prohibitions on the possession of firearms by

12
felons and the mentally ill, or [ii] laws forbidding
the carrying of firearms in sensitive places such
as schools and government buildings, or [iii] laws
imposing conditions and qualifications on the
commercial sale of arms. [Heller at 626-27
(emphasis added).]
It is far from clear that Justice Scalia meant the word
“longstanding” to be operative, as the court below
assumed, rather than merely descriptive.
Heller’s footnote 26 then termed these types of
restrictions as examples of “presumptively lawful
regulatory measures.” Heller at 627 n.26 (emphasis
added). Since the Court was not deciding every
possible issue related to the right to keep and bear
arms, it did not want to give the impression that it
was. Of the three illustrations given by the Court,
“longstanding” arguably described only the first —
possession by felons and the mentally ill. And neither
that nor the other two illustrations has any bearing on
the issue before the Court here. Indeed, a virtually
complete ban on bearing arms is an entirely different
kettle of fish from a “regulatory measure.”
But even if “longstanding” was to be applied as some
sort of test, a “presumptively lawful” regulatory
measure is one that still may be challenged — Heller
most certainly does not state “conclusively lawful” or
foreclose such challenges. On the contrary, Justice
Scalia stated “there will be time enough to expound
upon the historical justifications for the exceptions we
have mentioned if and when those exceptions come
before us.” Id. at 635. This is such a time, and the fact

13
that New York’s infringement has existed for 110
years does not make it constitutional. Indeed, the
Supreme Court of New York recently stated that “[t]he
mere fact that a practice has long existed without
court challenge does not by itself demonstrate its
constitutionality ... ‘[u]nconstitutional acts do not
become constitutional by virtue of repetition, custom or
passage of time’....” Soares v. State of New York, 68
Misc. 3d 249, 275 (2020).
II. NEW YORK STATE’S LICENSING SCHEME
UNDERMINES RATHER THAN PROTECTS
OUR FREE STATE.
Under New York’s licensing scheme, an applicant
must “‘demonstrate a special need for self-protection
distinguishable from that of the general community or
of persons engaged in the same profession.’”
Kachalsky at 86. Moreover, “[a] generalized desire to
carry a concealed weapon to protect one’s person and
property does not constitute ‘proper cause.’” Id.
(internal quotations omitted). Meanwhile, licensing
officers are “‘vested with considerable discretion’” in
deciding whether to grant a license application,
particularly in determining whether proper cause
exists for the issuance of a carry license.” Id. at 87.
The view of the court below — that the government’s
“licencing officers” can be entrusted with the
discretionary power to determine which members of
“the People” may bear arms and which may not — is to
disregard the purpose of the Second Amendment,
which is not merely self-defense against thugs on the

14
street. To find that purpose, one need look no further
than the Second Amendment’s text:
A well regulated Militia, being necessary to
the security of a free State, the right of the
people to keep and bear Arms, shall not be
infringed. [Emphasis added.]
The court below devoted little attention to the Second
Amendment’s “keep and bear” language, but even less
to the prefatory clause. Yet the amendment asserts
that “a well regulated Militia” — meaning the people’s
militia, not the government’s militia — is not only
desirable, but also “necessary to the security of a free
State.”
First, a “well regulated militia” requires an armed
populace because, over time, the natural tendency of
government is to grow its powers, which otherwise
could not be checked. No unarmed populace could be
considered sovereign, and its rights could never be
effectively protected against government abuses.
Indeed, the Battles of Lexington and Concord were
precipitated not by “taxation without representation,”
but instead by British efforts to confiscate colonial
guns and powder in order thereby to render the
American People powerless to resist the crown’s
dictates.2
History is replete with instances of
governments which disarm their own people to make
2

For a discussion of the role of British gun control in
precipitating the American revolution, see Gun Owners of
America, Inc., et al. Amicus Brief filed in Heller at 22-27 (Feb. 11,
2008).

15
them less able to resist the will of the rulers, including
the rule of the Philistines over ancient Israel,3 Hitler’s
reign over Germany,4 and Hugo Chavez’s installed
dictatorship over Venezuela.5
Second, the Second Amendment expressly identifies
its purpose. The Founders wrote a Constitution to be
the law which governed the government, and those
who supported ratification asked the People to trust
that it would be honored. Anti-Federalists such as
George Mason and Patrick Henry, who opposed
ratification, may have had a better understanding of
the heart of man, rejecting the notion that the new
national government would not eventually attempt to
seize from the People the rights with which they were
endowed by their Creator. It thus was necessary to
preserve a free state, in which the rulers of the nation
were ever aware that the People were armed, so that
there would be a point beyond which they could not go
in abusing their powers.

3

See 1 Samuel 13:19 (“Now there was no smith found throughout
all the land of Israel: for the Philistines said, Lest the Hebrews
make them swords or spears:”).
4

See, e.g., Stephen P. Halbrook, “Nazi Firearms Law and the
Disarming of the German Jews,” 17 ARIZONA JOURNAL OF
INTERNATIONAL AND COMPARATIVE LAW, No. 3, 483-535 (2000).
5

See, e.g., “Venezuela bans private gun ownership,” BBC (June
1, 2012); B. Adams, “MSNBC gives quick, minute-and-a-half
lesson on the need for our Second Amendment,” Washington
Examiner (Apr. 30, 2019).

16
In total opposition to the protections afforded by the
Second Amendment, New York State determines
which of the People it trusts to be armed. For
example, the state trusts those who currently or
previously worked for it — police officers and
correctional officers. New York Penal Law Sections
265.20, 400.01. The state also trusts those who are
providing private protection who likely are under some
form of government supervision.
In his recently published opus on the right to bear
arms, Second Amendment scholar Stephen P.
Halbrook explained the concerns expressed by another
anti-federalist to ratification of the Constitution
without a Second Amendment. He explained that
Federal Farmer had:
argued that “the constitution ought to secure a
genuine [militia] and guard against a select
militia, by providing that the militia shall ...
include ... all men capable of bearing arms.’”
Instead of a select militia, “to preserve liberty, it
is essential that the whole body of the people
always possess arms.... [S. Halbrook, The Right
to Bear Arms: A Constitutional Right of the
People or a Privilege of the Ruling Class?
(Bombardier Books: 2021) at 181 (emphasis
added).]
Through application of its discretionary standard of
“good cause,” New York State has assumed it may arm
its allies and protectors as a “select militia,” while
disarming the “well regulated Militia” — “the people.”
Indeed, for an entire century, New York State has

17
denied New Yorkers the right to defend themselves
against criminals, and against a government that in
the future could turn against its people. It creates
criminals out of citizens seeking to assert their
constitutional rights.6 Indeed, many officials of the
State of New York act as if they have no respect for its
citizenry, or even employees.7
Even in its basic public safety role, New York’s
largest city — New York City — has failed.
An
analysis of New York Police Department’s
communications demonstrated slow responses to mass
looting of businesses.8 The NYPD has been slow in
responding to rioting, and has failed to stop crimes,
even when committed in front of officers.9 In 2020,
New York City shootings almost doubled, and murders

6

See, e.g., J. Marzulli, “Weapons ban defied: S.I. man, arsenal
seized,” Daily News (Sept. 5, 1992) (“Police raided the home of a
Staten Island man who refused to comply with the city’s tough
ban on assault weapons, and seized an arsenal of firearms…. Spot
checks are planned....”)
7

See, e.g., D. Tcholakian, “Is New York the Most Corrupt State in
the Nation?” Longreads (May 11, 2018) (“Sexual harassment and
abuse is omnipresent in Albany. Lawmakers’ efforts to address
the problem have ranged from well-intentioned to outright
absurd.”)
8

See, e.g., J. Bolger, “Exclusive: NYPD took hours to respond to
mass looting, despite quickly cracking down on protests,” The
Intercept (June 1, 2021).
9

See, e.g., A. Feuer and E. Sandoval, “‘It Was a Disgrace’: De
Blasio and Police Chief Faulted Over Looting,” New York Times
(June 17, 2020).

18
almost increased by half.10 More recently, crime rose
by 30.4 percent in April 2021 compared to April 2020,
termed by the City a crime “surge.”11
Having failed to respect the rights of its residents,
and having failed to ensure their safety, New York has
absolutely no business prohibiting the bearing of arms
by the People.
III.

THE SECOND CIRCUIT’S USE OF
INTEREST BALANCING VIOLATES BOTH
HELLER AND MCDONALD.

The Kachalsky court first “assum[ed]” that the
Second Amendment applied to New York licensing
scheme, thereafter believing its job was to determine
“how closely to scrutinize New York’s statute to
determine its constitutional mettle.” Kachalsky at 93.
The court believed that Heller ruled out only rational
basis review, but claimed that this Court had
“expressly avoided deciding the standard of review”
because the D.C. law was unconstitutional under any
of the standards of scrutiny. Id. On that assumption,
the lower court then dismissed use of “heightened
scrutiny” on the theory that, although New York law
did place “substantial limits” on citizens’ exercise of

10

See, e.g., R. Parascandola and T. Tracy, “Violence adds to NYC’s
2020 death toll, with 97% jump in shootings and 45% increase in
murders — criminal carnage not seen in 14 years,” Daily News
(Jan. 1, 2021).
11

See, e.g., S. Lepore, “NYPD: Shootings up 166%, fueling NYC
crime surge,” News 10 (May 19, 2021).

19
their rights, its licensing scheme was not a “complete
prohibition” as a few licenses to favored persons are
approved occasionally. Plus, since the court alleged
that the “core” protection of Heller only applies in the
home, it believed that “applying less than strict
scrutiny ... makes eminent sense....” Id. at 93. In the
end, the court landed on “intermediate scrutiny” on its
way to sanctioning the deprivation of an enumerated
constitutional right that “shall not be infringed.” Id.
at 81.
A. Heller Did Address Use of Standards of
Review.
First, and most importantly, the Heller decision did
not “expressly avoid” deciding the standard of review
to apply — it expressly eschewed use of any so-called
“standard of review.” In fact, this Court signaled
hostility to using conventional judge-created standards
of review to analyze Second Amendment cases even
before it issued its opinion in Heller. During oral
argument, Chief Justice Roberts criticized the various
tests being proposed for evaluating the
constitutionality of firearms laws under the Second
Amendment:
Well, these various phrases under the different
standards that are proposed, “compelling
interest,” “significant interest,”
“narrowly
tailored,” none of them appear in the
Constitution; and I wonder why in this case we
have to articulate an all-encompassing standard.
Isn’t it enough to determine the scope of the
existing right that the amendment refers to....

20
[T]hese standards that apply in the First
Amendment just kind of developed over the years
as sort of baggage that the First Amendment
picked up. But I don’t know why when we are
starting afresh, we would try to articulate a whole
standard.... [District of Columbia v. Heller Oral
Argument (Mar. 18, 2008), p. 44, ll. 5-23
(emphasis added).]
Likewise, Justice Scalia criticized Justice Breyer’s
dissent for advocating a “judge-empowering
‘interest-balancing inquiry’ that ‘asks whether the
statute burdens a protected interest in a way or to an
extent that is out of proportion to the state’s salutary
effects upon other important government interests.’”
Heller at 634 (emphasis added). Justice Scalia
responded:
We know of no other enumerated constitutional
right whose core protection has been subjected to
a freestanding ‘interest-balancing’ approach.
The very enumeration of the right takes out of the
hands of government — even the Third Branch of
Government — the power to decide on a case-bycase basis whether the right is really worth
insisting upon. A constitutional guarantee subject
to future judges’ assessments of its usefulness is
no constitutional guarantee at all.... [Heller at
634 (emphasis added).]
To make certain the Court’s point was understood,
Justice Scalia added:

21
We would not apply an “interest-balancing”
approach to the prohibition of a peaceful neo-Nazi
march through Skokie ... [t]he Second
Amendment is no different. Like the First, it is
the very product of an interest balancing by
the people – which Justice Breyer would now
conduct for them anew. [Heller at 634-45 (bold
added).]
It is simply a charade to pretend that this Court was
not discussing tests such as strict and intermediate
scrutiny when it rejected interest balancing.
B. Judges May Not Balance a Right that “Is
the Very Product of an Interest Balancing
by the People.”
Having settled on intermediate scrutiny, the Second
Circuit then stated what it believed was on each side
of the balancing test — the government’s lofty and
compelling interest in public safety12 and crime control
— to prevent “‘mayhem in public places’” (id. at 96) —
versus the individual’s narrow interest in self-defense

12

The court embraced the view of the Fourth Circuit that,
“‘outside the home, firearm rights have always been more limited,
because public safety interests often outweigh individual interests
in self-defense.’” Kachalsky at 94 (citing U.S. v. Masciandaro, 638
F.3d 458, 470 (4th Cir. 2011)). See also Id. at 475 (Wilkinson, J.,
dissenting) (“This is serious business. We do not wish to be even
minutely responsible for some unspeakably tragic act of mayhem
because in the peace of our judicial chambers we miscalculated as
to Second Amendment rights.”). On the contrary, Second
Amendment rights may not be infringed on the basis of the
dangerousness of the right as perceived by modern federal judges.

22
on rare occasions that may never occur. Viewed
through this lens, the outcome of the case was
determined before the court’s analysis even began.
Balancing of competing interests gives judges great
power to decide a case based on what they believe to be
the best outcome — not from a legal perspective but
from a policy perspective — what Justice Scalia
described as “judge-empowering ‘interest-balancing.’”
Heller at 634.
To be sure, the Second Circuit is not alone in its
misreading of Heller, because the temptation of judges
to empower themselves to re-write the Constitution is
strong. In spite of that, some lower courts have
adhered to Heller. Perhaps the first lower federal
court opinion to faithfully and correctly read Heller on
this point was then-Judge Kavanaugh’s dissent in
Heller v. District of Columbia, 670 F.3d 1244, 1247
(D.C. Cir. 2011) (Kavanaugh, J., dissenting). That
approach, elevating “text, history, and tradition,” not
interest balancing, should be applied here, and by all
federal courts reviewing Second Amendment
challenges.
Indeed, New York’s licensing scheme for bearing
arms infringes on the constitutionally enumerated
right of the People of New York to “bear arms,” even if
judges on the Second Circuit do not agree with the
Second Amendment. Contrary to the lower court’s use
of interest balancing to uphold one of the most onerous
gun control regimes in the nation, the Second
Amendment “is the very product of an interest
balancing by the people.” Heller at 635. The
“enshrinement of constitutional rights necessarily

23
takes certain policy choices off the table.” Id. at 636.
Having adopted the rules by which they would be
governed when the People ratified the Constitution,
judges have no right to “conduct [interest balancing]
for them anew.” Id. at 635.
Early in this nation’s history, Justice Marshall
explained “the framers of the constitution
contemplated that instrument, as a rule for the
government of courts, as well as of the legislature.”
Marbury v. Madison, 5 U.S. 137, 179-80 (1803). If
federal judges are allowed to set aside portions of the
Constitution with which they disagree, then the
contract with the people is broken. This Court must
restore order to the lower federal courts.
IV. PRE-EXISTING RIGHTS ARE GOD-GIVEN
RIGHTS.
For almost a century and a half, this Court has
made absolutely clear that it understood that the
Second Amendment does not grant a right to the
People, but rather recognizes and protects a right that
the People enjoyed before the Constitution was
ratified. In United States v. Cruikshank, 92 U.S. 542
(1876), the Court asserted:
This is not a right granted by the
Constitution. Neither is it in any manner
dependent upon that instrument for its existence.
The second amendment declares that it shall not
be infringed.... [Id. at 553 (emphasis added).]
The Heller Court was even more expressive:

24
[I]t has always been widely understood that the
Second Amendment ... codified a pre-existing
right. The very text of the Second Amendment
implicitly recognizes the pre-existence of the
right and declares only that it “shall not be
infringed.” [Heller at 592 (bold added).]
Although the Second Circuit quotes this language
from Heller (Kachalsky at 88), the consequence of a
right being pre-existing appears to have been lost on
that court. Stated simply: if the government granted
a right to the People, it would have the power to alter
or rescind that right, based on a decision that the
rights of the people are less important than the
purported interests of the government. But if the right
pre-existed the existence of the government, then
government has no power to alter or rescind it, as the
lower court has permitted to occur here.
Our nation’s charter,
Independence, asserts that:

the

Declaration

of

We hold these Truths to be self-evident, that all
Men ... are endowed by their Creator with certain
unalienable Rights, that among these are Life,
Liberty, and the Pursuit of Happiness — That to
secure these Rights, Governments are instituted
among Men.... [Declaration of Independence
(emphasis added).]
Indeed, the Creator has much to say about this
unalienable right, as the right of self-defense can be
found throughout Scripture. In the Old Testament,
Exodus 22:2 (NASB) teaches: “If the thief is caught

25
while breaking in and is struck so that he dies, there
will be no guilt for bloodshed on his account.” In the
New Testament, Luke 11:21 (NLT) states: “When a
strong man, fully armed, guards his own house, his
possessions are secure.” As to bearing arms in selfdefense, when Jesus sent out his followers to spread
the Good News, he instructed: “he who has a money
bag, let him take it ... and he who has no sword, let
him sell his garmet and buy one.” Luke 22:35-37
(KJV). Also, the right of self-defense is closely
connected to the right to defend others being attacked:
“Rescue weak and needy people. Help them escape the
power of wicked people.” Psalm 82:4 (GW).
As to the responsibility of government to “secure”
the right to self-defense, the lower court has done a
perfectly terrible job. It has sanctioned New York
State’s eradication of the pre-existing right of the
People to bear arms outside the home. The tendency
of government to grow government power is no
surprise, as the Declaration of Independence
recognizes that governments sometimes become
abusive of the rights of the People.
While
“Governments long established should not be changed
for light and transient Causes” and “Mankind [is] more
disposed to suffer, while Evils are sufferable,” there
comes a time that “Government becomes destructive of
these Ends.” At such a time “it is the Right of the
People to alter or abolish [their government] and to
institute new Government....” No one wants that day
to arrive — but the People of New York have long
suffered under a “longstanding” abusive law. Thus, it
now falls upon this Court to reject and repudiate the

26
decision of the Second Circuit, and to protect preexisting and unalienable rights of the People.
V. A DECISION STRIKING DOWN NEW YORK’S
“PROPER CAUSE” STANDARD ALMOST
CERTAINLY WILL BE MANIPULATED BY
THE LOWER COURTS TO LIMIT GUN
RIGHTS IN SUBSEQUENT LITIGATION.
After Heller and McDonald, the lower federal courts
— largely populated by highly educated, establishment
lawyers from big cities, with little affinity for firearms,
and who often worked in big law or as prosecutors —
have often resisted faithful implementation of those
decisions. Whether by the two-step test, or the
approach taken in Kachalsky, the lower courts have
sought to construe the holding in Heller in the
narrowest possible terms — as a prohibition on
nothing more than government implementing a total
ban on having an operable handgun in the home for
self-defense. Based on this experience, these amici
urge this Court to consider how even a pro-gun
decision in this case could be evaded or narrowed by
those same lower federal courts. For example, if the
Court determines that New York may not enforce its
“proper cause” standard to authorize licensure of the
concealed carry of handguns, that ruling could be
interpreted as having sub silentio determined that
open carry can be banned, and any carry of rifles and
shotguns could be banned as well.
This problem was not created by Petitioners.
Petitioners originally sought this Court’s review on the
question “[w]hether the Second Amendment allows the

27
government to prohibit ordinary law-abiding citizens
from carrying handguns outside the home for selfdefense.” Petition for Certiorari at i. This Court,
however, granted review as to a much narrower
question: “[w]hether the State’s denial of petitioners’
applications for concealed-carry licenses for
self-defense violated the Second Amendment.”
Responding to the issue under review, Petitioners
addressed primarily the “proper cause” aspect of the
New York permitting system, seeking only that they be
issued “unrestricted” licenses to carry concealed
handguns. J.A.127-28.
In order to be responsive to the revised question
posed by this Court, Petitioners’ merits brief no longer
challenges the legitimacy of a state law requiring a
law-abiding person to obtain government preclearance,
in the form of a license to carry a firearm, before he
may exercise an enumerated constitutional right.13 As
Petitioners note, “Nash possesses a ‘restricted’ license
to carry a firearm, which permits him to carry his
handgun outside the home for hunting and target

13

Such a licensing scheme would never be permitted in any other
area of constitutional law. This Court should not permit the lower
courts to treat the Second Amendment as a “second-class right,
subject to an entirely different body of rules than the other Bill of
Rights guarantees....” McDonald v. City of Chicago at 780. See
also Mai v. United States, 974 F.3d 1082, 1097 (9th Cir. 2020)
(VanDyke, J., dissenting) (noting that the Second Amendment is
treated differently from other constitutional rights based merely
on the subject matter involved — “a simple four-letter word:
guns,” something about which judges often permit “outcome[s]”
that would not be “countenance[d] in ... any other area of the
law.”).

28
shooting, but not for self-defense.” Brief for Petitioners
(“Pet. Br.”) at 18-19. Likewise, “Koch possesses a
‘restricted’ license.” Id. at 19. Below, Petitioners
challenged only the “proper cause” aspect of the New
York permitting system, and sought that they be
issued “unrestricted” licenses to carry handguns.
J.A.127-28.
Second, Petitioners reference various cases in which
state courts have discussed either open carry with
respect to whether concealed carry is permitted, or vice
versa, and reference Thomas “Cooley [who] was
skeptical of ‘the power of the legislature to regulate
this right’ to carry at all.” Brief for Petitioner at 33-38.
However, since open carry is not the issue in this case,
Petitioners understandably do not further discuss open
carry.14

14

In recent years, some lawyers have advocated the position that
a state might ban open carry, or alternatively, it might ban
concealed carry, so long as it does not ban both, thus leaving its
residents some avenue to “bear” arms. See, e.g., Palmer v. District
of Columbia, 1:09-cv-01482 (D.D.C.), Memorandum of Points and
Authorities in Support of Plaintiffs’ Motion for Summary
Judgment, ECF #5-2 at 12-13 (“Plaintiffs make no claim for a
right to carry concealed handguns, any more than they claim a
right to carry handguns openly. ... Legislatures might well prefer
one form of carrying over another. ... Heller[] ... does not compel
government officials to allow the carrying of handguns in a
manner ... so long as a more socially-conducive option exists to
allow people to exercise the right to bear arms....”).
This position conflicts with the text, which broadly
protects the right to “bear arms” without qualification. This
reasoning is also in conflict with Heller, which explained that,
“[a]t the time of the founding, as now, to ‘bear’ meant to ‘carry,’”
including “‘upon the person or in the clothing or in a pocket....’”

29
Third, throughout Petitioners’ brief, they argue in
favor of the carrying of “arms” broadly. Petitioners
correctly argue that “text, history, and tradition
confirm that the Second Amendment protects the right
to carry common arms like handguns for self-defense,”
and Petitioners note that, “‘[i]n many parts of the
United States, a man no more thinks, of going out of
his house on any occasion, without his rifle or musket
in his hand, than an European fine gentleman without
his sword by his side.’” Pet. Br. at 3, 27 (emphasis
added). See also at 6 (noting “[t]he importance of not
just keeping firearms, but bearing them for
self-defense”). That said, in this case, Petitioners seek
only the right to “carry handguns for self-defense.”
Pet. Br. at 48 (emphasis added).15
Certainly, there is much to be said for judicial
restraint, with the Court deciding only the specific case

Id. at 584. Since the Court discussed carrying both “upon” one’s
body (meaning “[r]esting or being on the top or surface” (N.
Webster, An American Dictionary of the English Language, 1828,
p. 862)) and “in” one’s clothing, it thus foreclosed the argument
that “bear arms” can be limited to open or concealed carry.
Finally, Heller rejected outright the notion that the government
need only leave some option for exercising a right, calling it “no
answer to say ... that it is permissible to ban the [one thing] so
long as [another thing] is allowed,” thus explicitly leaving it up to
“the American people,” rather than their government, to choose
how they exercise their rights. Id. at 629.
15

Of course, Heller foreclosed any notion that the right to bear
arms applies only to handguns, stating that “the Second
Amendment extends, prima facie, to all instruments that
constitute bearable arms, even those that were not in existence at
the time of the founding.” Id. at 582.

30
or controversy before it. However, if the jurisprudence
since Heller and McDonald teaches anything, it is that
the lower courts will go to great lengths to avoid this
Court’s Second Amendment holdings by any means
necessary. Indeed, as noted supra, in the past 13
years, the lower federal courts have largely sought to
contain Heller to its specific facts. First, the courts
mostly have rejected the notion that this Court’s
reasoning has any application at all outside of the socalled “core” act of keeping an operable handgun in the
home for self-defense. Second, even though Heller
r e j e c t e d t he us e o f “ j u d g e - e m p o w e r i n g
‘interest-balancing inquir[ies],’” the lower courts
almost uniformly continue to use some type of
scrutiny on the theory that the Court did not explicitly
reject those particular balancing tests by name.
Unless this Court is crystal clear in its language, it
is a virtual certainty that the lower federal courts
likewise would engage in guerilla warfare against a
pro-gun decision in this case. Should this Court
conclude that Petitioners should be granted a New
York state carry license, the lower courts no doubt will
take that as conclusive proof that all licensure in the
Second Amendment context is permissible. Should
this Court conclude that Petitioners have a right to
carry a concealed firearm in public, the lower courts no
doubt will claim this means that there is no Second
Amendment right to carry a firearm openly. And
should this Court conclude that the Amendment
protects the right to carry a handgun in public, the
lower courts no doubt will treat that as a definitive
statement that no one may “bear” long guns. See
Kachalsky at 88 (claiming that “the Supreme Court’s

31
pronouncement in Heller limits the right to bear arms
for self-defense to the home.”).
Viewed through this lens, this Court should attempt
to preempt and thwart future attempts by the lower
courts to undermine the right to keep and bear arms,
who will rely on questions this Court does not answer
as irrefutable proof that other persons, other arms, and
other activities are not protected by the Second
Amendment.
CONCLUSION
For the foregoing reasons, the decision of the U.S
Court of Appeals for the Second Circuit should be
reversed.
Respectfully submitted,
WILLIAM J. OLSON*
ROBERT J. OLSON
JEREMIAH L. MORGAN
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record

July 20, 2021

